                           Testimony of Karl W. Schornagel
                      Inspector General, the Library of Congress
                    Before the Committee on House Administration
                        United States House of Representatives
                                    April 29, 2009


Chairman Brady, Mr. Lungren, and members of the committee, I am pleased to address
with you today the issue of Information Technology (IT) Strategic Planning at the
Library of Congress. This topic is critically important to the Library as it increasingly
relies on IT to accomplish its core mission of making its resources available and useful to
the Congress and the American people, and to sustain and preserve a universal collection
of knowledge and creativity for future generations.

It is well established that IT plays an ever increasing and evolving role in both the public
and private sectors, and that leading organizations need IT governance that allows for
effective transformations. The needs of the Library of Congress are no different. In the
200 plus year history of the Library, the current period represents dramatic change in
both the format of information, and the tools for collecting, preserving, and making
accessible the Library’s vast collections. Specifically, digital-born information is playing
a greater role in the library and information management worlds and the change in
technology has evolved in a relatively short time from centralized mainframe computers
to distributed servers and Web-based and interactive technologies.

As technology advances, sound IT investment decision-making requires close attention to
analysis and planning. In the past, many IT investments were based on unrealistic claims
by technology providers, and many organizations seeking to implement advanced
technology were without the benefit of the proven analytical methodologies and
management tools that exist today. Large budget outlays were made with little
accountability for results and, in many cases, consideration of long-term return on
investment was an afterthought.

In today’s environment, organizations must follow a sophisticated approach to plan and
evaluate the return on their investments and develop enterprise architectures that will
facilitate an entity-wide approach to accomplishing mission requirements. For these
reasons, I decided to conduct an audit to determine whether the Library has an adequate
IT strategic planning mechanism. I established the objectives, scope, and methodology
for this review, but did not have sufficient resources to carry it out, so we contracted with
A-Tech Systems, Inc.

The audit focused broadly on the Library’s plan for managing its IT infrastructure
investments. The objectives included determining (1) whether the Library’s IT strategic
plan aligns with its overall strategic plan, (2) the validity and integrity of the IT plan, (3)
the appropriateness and effectiveness of the Library’s IT organizational structure and
placement, and (4) the extent to which recommendations made by the National Research
Council’s (NRC) LC21 report in 2000 were implemented by the Library, and whether
there were recommendations from the NRC study still relevant today that had not been
fully addressed by the Library.

It is important to point out that the Library is a leader in the international digital
technology arena, and has made substantial strides in transforming its IT support function
since the NRC’s LC21 report. The Library also has many very talented IT personnel. A-
Tech’s report pointed out a number of areas in which the Library has made tremendous
progress in IT. But in order to remain a leader, the Library needs to take several
significant steps to evolve.

The following highlights our major findings:

Strategic Planning―The Library’s planning process is not inclusive of all internal
stakeholders and the policy assigning responsibility for strategic planning is not clear.
The IT plan does not align well with the Library’s strategic plan and is not a unifying
force at the Library. One of the results is that digitization efforts are unfocused.

Including frontline staff in planning and holding them accountable for goals and results
aligns staff and results in better execution of organizational missions. Unclear policy
leads to ambiguity and misunderstandings of authorities and responsibilities, and has
divided components within the Library about priorities for digitizing content that should
have been resolved through the strategic planning process. For example, there are
multiple digitized groupings across the Library’s Web sites with no common search and
access tools and no comprehensive index or inventory. It is currently optional for
individual components of the Library to develop strategic plans that tie into the Library’s
strategic plan which prevents continuity. Overall, the Library’s strategic planning
process is not as mature as many comparable federal agencies.

The IT plan focuses on service functions for workstations and technical support, while
the IT component of the Library’s Strategic Plan focuses on higher level concepts such as
scalable technology and entity-wide architecture, with no direct linkage between the two
plans. The linkage is needed to clarify IT priorities and to make the Library’s strategic
planning effort a unifying force.

IT Investment—IT investments are not linked to the strategic plan, resulting in the
duplication of efforts and acquisitions, there is no consistent cost/benefit analysis of
alternatives, and it is difficult to track IT costs. The Library has the potential to achieve
dramatic improvements in investment returns, but its IT investment process is in the early
stages of maturity.

There needs to be a capital asset planning and investment process where spending
decisions are regarded as a whole weighted against meeting mission performance. This
process needs to be driven by the priorities derived from the strategic planning process.

The lack of transparency in tracking IT costs has resulted in uncoordinated and
duplicative efforts for help desk support, software, hardware, IT contractor support,



                                                                                            2
vendor support, and training. Individual Library components make purchases without
using Library-wide negotiated contracts so the Library does not benefit from economies
of scale, and several Library components have their own fully staffed technology offices
and contractor support, in part because it is not clear who pays for IT support for the
various services, and because the Library components feel that they can not rely on the
Information Technology Services (ITS) component for service needs. ITS is
organizationally under the Office of Strategic Initiatives/Chief Information Officer (CIO).
At 131 employees at a cost of $12.5 million, there is an unusually large number of IT
positions at the Library beyond the positions in the CIO’s office. The totals outside the
ITS help desk are 360 staff at $38 million.

The Library also does not consistently conduct cost/benefit analyses to determine
whether to acquire externally or develop in-house IT systems, and to evaluate alternative
technologies, which has resulted in considerable expenditures for unsuccessful projects.
For example, an in-house system developed for the Library’s new Audio-Visual
Conservation Center had to be replaced shortly after implementation by an off-the-shelf
system. A cost/benefit analysis of alternatives may have prevented this scenario.

There are some very positive success stories on some Library projects, but these are due
to the extraordinary actions on the part of the project teams. Success is often difficult to
repeat without the necessary framework in place, and it needs to be institutionalized at
the Library, as it has in other federal agencies and leading business enterprises.

Organizational Structure—The organizational structure of ITS does not foster strategic
planning and good IT governance. The CIO function combines both programmatic and
IT support functions which detracts from good governance.

OSI is unique among the federal agencies that we researched in that along with the CIO
function, it includes major programmatic functions; both the National Digital Information
Infrastructure and Preservation Program and the Teaching with Primary Sources
Program. The traditional IT responsibilities are taken on by ITS, with no direct
representation on the Library’s Executive Committee. Although the CIO has a track
record of highly successful program implementations, organizational structures should be
based on function and purpose, not individuals.

We found that in federal agencies and major universities with similar missions that the
ITS function would normally be the CIO function and report directly to the organization
or agency head. The Library’s CIO is largely perceived as the CIO in name only; largely
due to her focus on the major programmatic areas rather than the infrastructural IT
support functions. In almost all federal agencies, the CIO has IT management duties as
that official’s primary duty, and these positions almost unanimously report directly to the
agency head.

At the Library, the CIO is not endowed with the authority to make Library-wide
decisions on IT governance, capital planning, and asset management. This is evidenced
by the fact that other components of the Library make their own IT investment decisions



                                                                                               3
and, sometimes, capital planning, IT budget management, and acquisitions, and she has
limited authority to enforce Library-wide security policy. A CIO cannot properly lead an
IT organization without full authority and responsibility for these critical elements.

Enterprise Architecture—The Library is missing an enterprise architecture (EA)
program for planning future technology. A contractor has been deployed to develop a
plan, but the effort is in the early stages of maturity.

An EA framework provides a high-level snapshot of as-is and future systems and
business processes to provide a framework for making IT investment decisions. EA tries
to understand existing business processes and either build IT systems around them or
rethink and improve business processes as IT is being planned. The Library has some
fragmented aspects of an EA program, but lags behind most federal agencies. Without a
sufficient program, it is difficult to link IT to the mission of the organization, it makes it
harder to identify systems interface problems, and there may be fewer opportunities for
economies of scale in purchasing.

Customer Service—There are significant customer service problems, at least partially
because the Library does not employ quality assurance mechanisms such as service level
agreements and performance metrics. There may also be opportunities for economies of
scale by consolidating help desk functions.

The problem is to the extent that Library customers have created their own IT support
organizations because their needs are not being met. Our count in January 2009 revealed
more than 4,000 open service requests, some dating back several years. We did not
investigate each open request to determine if it was still actually unfilled or simply not
properly closed in the help desk system; nonetheless, this indicates to us a lack of follow-
through on IT support. Part of the problem is that the current mechanisms neither define
service expectations, nor provide a yardstick by which service quality can be measured.

Customers go out of their way to work around ITS or attempt and then give up pursuing
projects that could be a Library-wide benefit such as the attempt to deploy networked
combination printer/copier/scanners. Because of a stalemate between ITS and the
Library’s infrastructure component about responsibility for connecting the machines, the
capability was never deployed and at the end of a five-year contract, the Library will have
paid $5.7 million without realizing the full functionality of these machines; they are now
being used as just copiers. My office intends to follow up to determine the incremental
cost of this capability that is not being used.

The organizational configuration and structured approach concepts in our report represent
government and industry best practices for the complex tasks of evaluating the Library’s
current and future needs, and for making the right choices for successfully carrying out
the Library’s mission.

The Library spends hundreds of millions of dollars on IT and collectively, we are
confident that the recommendations resulting from this audit will improve the economy,



                                                                                             4
efficiency, and effectiveness of the Library’s IT transformation efforts over time. Our
complete report, Information Technology Strategic Planning: A Well-Developed
Framework is Essential to Support the Library’s Current and Future IT Needs, March
2009, with the Library’s response to our draft findings, can be accessed on our Web site
at www.loc.gov/about/oig or from the Library of Congress Web site at www.loc.gov
under ‘Inspector General.’

This concludes my testimony.




                                                                                           5
